  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




HIGHMARK MEDICARE SERVICES, INC.,
OVERSTATED ITS ALLOCABLE PENSION
   COSTS FOR CALENDAR YEARS
       2008 THROUGH 2011



    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                    Patrick J. Cogley
                                                Regional Inspector General

                                                        March 2014
                                                       A-07-13-00416
                           Office of Inspector General
                                            https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is to
protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the health
and welfare of beneficiaries served by those programs. This statutory mission is carried out through a
nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with its
own audit resources or by overseeing audit work done by others. Audits examine the performance of HHS
programs and/or its grantees and contractors in carrying out their respective responsibilities and are intended to
provide independent assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress, and
the public with timely, useful, and reliable information on significant issues. These evaluations focus on
preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of departmental
programs. To promote impact, OEI reports also present practical recommendations for improving program
operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department of
Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI often
lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In connection
with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other guidance to the
health care industry concerning the anti-kickback statute and other OIG enforcement authorities.
                              Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at https://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post
its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

  Highmark Medicare Services, Inc., overstated its allocable pension costs for the
  Medicare and Other segments by $383,000 and $5.4 million, respectively, for calendar
  years 2008 through 2011.

WHY WE DID THIS REVIEW

Medicare contractors are eligible to be reimbursed a portion of their pension costs, which are
funded by the annual contributions that these contractors make to their pension plans. The
amount of pension costs that the Centers for Medicare & Medicaid Services (CMS) reimburses
to the contractors is determined by the cost reimbursement principles contained in the Federal
Acquisition Regulation (FAR) and Cost Accounting Standards (CAS) as required by the
Medicare contracts.

For this review, we focused on one Medicare contractor, Highmark Medicare Services, Inc.
(Highmark). In particular, we examined the Medicare segment and Other segment allocable
pension costs (which for this report we refer to as “pension costs”) that Highmark used to
calculate the indirect cost rates in its incurred cost proposals (ICPs).

The objective of this review was to determine whether the pension costs that Highmark used to
calculate the indirect cost rates in its ICPs for calendar years (CYs) 2008 through 2011 complied
with Federal requirements.

BACKGROUND

During our audit period, Highmark was a wholly owned subsidiary of Highmark, Inc., whose
home office was in Camp Hill, Pennsylvania. Highmark administered Medicare Parts A and B
operations under cost reimbursement contracts with CMS until the Medicare segment was sold to
Diversified Services Options, Inc. (DSO), effective January 1, 2012.

With the implementation of Medicare contracting reform, Highmark continued to perform
Medicare work after being awarded the Medicare administrative contractor (MAC) (Jurisdiction
12) contract on October 24, 2007. While performing its MAC work, Highmark also functioned
as a Medicare Part A fiscal intermediary and Part B carrier, with those contracts terminating in
July 2008 and December 2008, respectively. Highmark continued to work as the Jurisdiction 12
MAC until January 1, 2012, when Highmark, Inc., sold its wholly owned subsidiary, Highmark,
to DSO.

Effective January 1, 1998, Highmark amended its disclosure statement to implement pooled
costing. Medicare contractors use pooled costing to calculate the indirect cost rates that they
submit on their ICPs. The pension costs are included in the computation of the indirect cost rates
reported on the ICPs.

Under the provisions of Medicare contracting reform, CMS transitioned the functions of the
fiscal intermediaries and carriers, which had executed the Title XVIII Medicare contracts, to



Highmark Medicare Services, Inc., Allocable Pension Costs (A-07-13-00416)                           i
Medicare contractors. As part of this transition, the method by which Medicare reimbursed
pension costs to the contactor changed from a cost reimbursement basis to an indirect cost basis.
In accordance with the FAR and the Medicare contract, reimbursement of indirect costs was now
based on indirect cost rates that met the negotiated indirect cost rates determined by the contract.

We reviewed $13,007,682 of Medicare segment pension costs used by Highmark in the
calculation of its indirect cost rates for CYs 2008 through 2011. We also reviewed $215,594,095
of Other segment pension costs used by Highmark in the calculation of its indirect cost rates for
this same time period.

WHAT WE FOUND

Neither the Medicare segment nor the Other segment allocable pension costs that Highmark used
to calculate indirect cost rates complied with Federal requirements. Specifically, for CYs 2008
through 2011:

    •   Highmark used Medicare segment pension costs of $13,007,682 to calculate its indirect
        cost rates; however, we determined that the Medicare segment pension costs that
        Highmark should have used to calculate the indirect cost rates were $12,624,732. Thus,
        Highmark overstated the Medicare segment pension costs used to calculate its indirect
        cost rates by $382,950.

    •   Highmark used Other segment pension costs of $215,594,095 to calculate its indirect cost
        rates; however, we determined that the Other segment pension costs that Highmark
        should have used to calculate the indirect cost rates were $210,178,960. Thus, Highmark
        overstated the Other segment pension costs used to calculate its indirect cost rates by
        $5,415,135.

These overstatements occurred primarily because Highmark used incorrect CAS pension costs to
calculate its indirect cost rates for CYs 2008 through 2011.

WHAT WE RECOMMEND

We recommend that Highmark:

    •   decrease the Medicare segment pension costs used to calculate the indirect cost rates by
        $382,950 for CYs 2008 through 2011 and

    •   decrease the Other segment pension costs used to calculate the indirect cost rates by
        $5,415,135 for CYs 2008 through 2011.

AUDITEE COMMENTS AND OUR RESPONSE

In written comments on our draft report, Highmark did not directly address our
recommendations. However, it is clear from the comments that Highmark did not agree with our




Highmark Medicare Services, Inc., Allocable Pension Costs (A-07-13-00416)                          ii
recommendations to reduce its Medicare segment and Other segment allocable pension costs by
$382,950 and $5,415,135, respectively.

Highmark referred to its agreement with our recommendations in related report A-07-13-00414
but did not agree with the methodology we used when applying prepayment credits.
Specifically, Highmark did not concur with our interpretation of FAR 31.205-6(j)(2)(iii) as it
relates to offsetting prepayment credits from the CAS funding target.

Nothing in Highmark’s comments caused us to change our findings or recommendations. We
disagree with Highmark’s assertions about our methodology for the calculation of pension costs
when prepayment credits exist.




Highmark Medicare Services, Inc., Allocable Pension Costs (A-07-13-00416)                        iii
                                                     TABLE OF CONTENTS


INTRODUCTION .......................................................................................................................... 1

       Why We Did This Review ...................................................................................................... 1

       Objective ................................................................................................................................. 1

       Background ............................................................................................................................. 1
           Highmark Medicare Services, Inc. ................................................................................. 1
           Medicare Reimbursement of Pension Costs ................................................................... 2

       How We Conducted This Review........................................................................................... 2

FINDINGS ...................................................................................................................................... 2

       Overstatement of Pension Costs ............................................................................................. 3
           Medicare Segment Pension Costs ................................................................................... 3
           Other Segment Pension Costs. ........................................................................................ 4

RECOMMENDATIONS ................................................................................................................ 4

AUDITEE COMMENTS................................................................................................................ 4

OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................................... 6

APPENDIXES

       A: Audit Scope and Methodology .......................................................................................... 8

       B: Federal Requirements Related to
          Reimbursement of Pension Costs .................................................................................... 10

       C: Allocable Pension Costs for
          Highmark Medicare Services, Inc.,
          for Calendar Years 2008 Through 2011 .......................................................................... 11

       D: Auditee Comments .......................................................................................................... 13




Highmark Medicare Services, Inc., Allocable Pension Costs (A-07-13-00416)                                                                        iv
                                               INTRODUCTION

WHY WE DID THIS REVIEW

Medicare contractors are eligible to be reimbursed a portion of their pension costs, which are
funded by the annual contributions that these contractors make to their pension plans. The
amount of pension costs that the Centers for Medicare & Medicaid Services (CMS) reimburses
to the contractors is determined by the cost reimbursement principles contained in the Federal
Acquisition Regulation (FAR) and Cost Accounting Standards (CAS) as required by the
Medicare contracts.

For this review, we focused on one Medicare contractor, Highmark Medicare Services, Inc.
(Highmark). In particular, we examined the Medicare segment and Other segment allocable
pension costs (which for this report we refer to as “pension costs”) that Highmark used to
calculate the indirect cost rates in its incurred cost proposals (ICPs).

OBJECTIVE

Our objective was to determine whether the pension costs that Highmark used to calculate the
indirect cost rates in its ICPs for calendar years (CYs) 2008 through 2011 complied with Federal
requirements.

BACKGROUND

Highmark Medicare Services, Inc.

During our audit period, Highmark was a wholly owned subsidiary of Highmark, Inc., whose
home office was in Camp Hill, Pennsylvania. Highmark administered Medicare Parts A and B
operations under cost reimbursement contracts with CMS until the Medicare segment was sold to
Diversified Services Options, Inc. (DSO), effective January 1, 2012.

With the implementation of Medicare contracting reform, 1 Highmark continued to perform
Medicare work after being awarded the MAC (Jurisdiction 12) contract on October 24, 2007. 2
While performing its MAC work, Highmark also functioned as a Medicare Part A fiscal
intermediary and Part B carrier, with those contracts terminating in July 2008 and
December 2008, respectively. Highmark continued to work as the Jurisdiction 12 MAC until
January 1, 2012, when Highmark, Inc., sold its wholly owned subsidiary, Highmark, to DSO.


1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173
(MMA), required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative
contractors (MACs) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational;
for jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the terms “Medicare contractor” and “MAC” mean the fiscal intermediary,
carrier, or MAC, whichever is applicable.
2
 Jurisdiction 12 consists of the States of Delaware, Maryland, New Jersey, and Pennsylvania, and the District of
Columbia.


Highmark Medicare Services, Inc., Allocable Pension Costs (A-07-13-00416)                                            1
Effective January 1, 1998, Highmark amended its disclosure statement to implement pooled
costing. Medicare contractors use pooled costing to calculate the indirect cost rates that they
submit on their ICPs. The pension costs are included in the computation of the indirect cost rates
reported on the ICPs. The FAR requires Medicare contractors to file final indirect cost rates on
their ICPs 6 months after the year end. In turn, CMS uses the indirect cost rates in reimbursing
costs under cost-reimbursement contracts.

Medicare Reimbursement of Pension Costs

CMS reimburses a portion of the Medicare contractors’ annual pension costs, which are funded
by the annual contributions that these contractors make to their pension plans. To be allowable
for Medicare reimbursement, pension costs must be (1) measured, assigned, and allocated in
accordance with CAS 412 and 413 and (2) funded as specified by part 31 of the FAR.

Under the provisions of the contracts that CMS developed with the Medicare contractors as part
of the implementation of the MMA, the method by which Medicare reimbursed pension costs to
the contractor changed from a cost reimbursement basis to an indirect cost basis. In accordance
with the FAR and the MAC contract, reimbursement of indirect costs was now based on indirect
cost rates that met the negotiated indirect cost rates determined by the contract.

HOW WE CONDUCTED THIS REVIEW

We reviewed $13,007,682 of Medicare segment pension costs used by Highmark in the
calculation of its indirect cost rates for CYs 2008 through 2011. We also reviewed $215,594,095
of Other segment pension costs used by Highmark in the calculation of its indirect cost rates for
this same time period.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                                FINDINGS

Neither the Medicare segment nor the Other segment allocable pension costs that Highmark used
to calculate indirect cost rates complied with Federal requirements. Specifically, for CYs 2008
through 2011:




Highmark Medicare Services, Inc., Allocable Pension Costs (A-07-13-00416)                         2
    •   Highmark used Medicare segment pension costs of $13,007,682 to calculate its indirect
        cost rates; however, we determined that the Medicare segment pension costs that
        Highmark should have used to calculate the indirect cost rates were $12,624,732. Thus,
        Highmark overstated the Medicare segment pension costs used to calculate its indirect
        cost rates by $382,950.

    •   Highmark used Other segment pension costs of $215,594,095 to calculate its indirect cost
        rates; however, we determined that the Other segment pension costs that Highmark
        should have used to calculate the indirect cost rates were $210,178,960. Thus, Highmark
        overstated the Other segment pension costs used to calculate its indirect cost rates by
        $5,415,135.

These overstatements occurred primarily because Highmark used incorrect CAS pension costs to
calculate its indirect cost rates for CYs 2008 through 2011.

OVERSTATEMENT OF PENSION COSTS

Medicare Segment Pension Costs

Highmark used pension costs of $13,007,682 to calculate its indirect cost rates for the Medicare
segment. We calculated CAS-based pension costs for CYs 2008 through 2011 for the Medicare
segment in accordance with CAS 412 and 413. For details on the Federal requirements, see
Appendix B.

We determined that the CAS-based pension costs for the Medicare segment were $12,624,732
for CYs 2008 through 2011. Thus, Highmark overstated the Medicare segment pension costs
used to calculate its indirect cost rates for CYs 2008 through 2011 by $382,950. This
overstatement occurred because Highmark used incorrect CAS pension costs when calculating
its indirect cost rates for this time period.

Table 1 below shows the differences between the Medicare segment CAS-based pension costs
that we calculated and the pension costs that Highmark used to calculate its indirect cost rates for
CYs 2008 through 2011. Appendix C contains additional details on pension costs.

               Table 1: Comparison of Pension Costs for the Medicare Segment

                                          Medicare Segment
                                           Pension Costs
                    Calendar
                     Year           Per Audit        Per Highmark           Difference
                      2008          $1,700,340           $1,695,676               $4,664
                      2009           4,215,170            4,391,760            (176,590)
                      2010           3,376,929            3,433,410             (56,481)
                      2011           3,332,293            3,486,836            (154,543)
                     Total         $12,624,732          $13,007,682          ($382,950)



Highmark Medicare Services, Inc., Allocable Pension Costs (A-07-13-00416)                          3
Other Segment Pension Costs

Highmark used pension costs of $215,594,095 to calculate its indirect cost rates for the Other
segment. We calculated CAS-based pension costs for CYs 2008 through 2011 for the Other
segment in accordance with CAS 412 and 413. For details on the Federal requirements, see
Appendix B.

We determined that the CAS-based pension costs for the Other segment were $210,178,960 for
CYs 2008 through 2011. Thus, Highmark overstated the Other segment pension costs used to
calculate its indirect cost rates for CYs 2008 through 2011 by $5,415,135. This overstatement
occurred because Highmark used incorrect CAS pension costs when calculating its indirect cost
rates for this time period.

Table 2 below shows the differences between the Other segment CAS-based pension costs that
we calculated and the pension costs that Highmark used to calculate its indirect cost rates for
CYs 2008 through 2011. Appendix C contains additional details on pension costs.

                 Table 2: Comparison of Pension Costs for the Other Segment

                                   Other Segment Pension Costs
                   Calendar
                    Year            Per Audit        Per Highmark           Difference
                     2008          $39,478,592          $38,286,324           $1,192,268
                     2009           67,120,585           70,189,272          (3,068,687)
                     2010           51,291,441           52,347,671          (1,056,230)
                     2011           52,288,342           54,770,828          (2,482,486)
                    Total         $210,178,960         $215,594,095         ($5,415,135)

                                       RECOMMENDATIONS

We recommend that Highmark:

    •   decrease the Medicare segment pension costs used to calculate the indirect cost rates by
        $382,950 for CYs 2008 through 2011 and

    •   decrease the Other segment pension costs used to calculate the indirect cost rates by
        $5,415,135 for CYs 2008 through 2011.

                                       AUDITEE COMMENTS

In written comments on our draft report, Highmark did not directly address our
recommendations. However, it is clear from the comments that Highmark did not agree with our
recommendations to reduce its Medicare segment and Other segment allocable pension costs by
$382,950 and $5,415,135, respectively.




Highmark Medicare Services, Inc., Allocable Pension Costs (A-07-13-00416)                          4
Highmark referred to its agreement with our recommendations in related report A-07-13-00414
(Appendix A) but did not agree with the methodology we used when applying prepayment
credits. Specifically, Highmark did not concur with our interpretation of FAR 31.205-6(j)(2)(iii)
as it relates to offsetting prepayment credits from the CAS funding target.

Below is a summary of Highmark’s comments. Highmark’s comments appear in their entirety as
Appendix D.

    •   Highmark agreed that it should have adjusted its Final Administrative Cost Proposals for
        FYs 2003 through 2006 on the basis of the revised CAS pension cost calculations
        resulting from our prior audit (A-07-04-03163, issued January 21, 2005).

    •   Highmark did not concur with our “interpretation” of FAR 31.205-6(j)(2)(iii) as it relates
        to offsetting prepayment credits from the CAS funding target. In this context, Highmark
        referred to the methodology described in Appendix C, endnote 9, according to which we,
        as Highmark stated, “… generally disallowed quarterly interest because of the existence
        of Highmark’s prepayment credits.” Highmark disagreed with this methodology because,
        it said, “FAR 31.205-6(j)(2)(iii) does not even reference prepayment credits.” Highmark
        added that under its interpretation of the FAR, “… interest is only unallowable if
        payment is made 30 days after the end of each quarter.” Highmark stated that because it
        submitted its quarterly cash contributions within 30 days after the end of each quarter, its
        accrued interest is allowable based on FAR 31.205-6(j)(2)(iii). 3

    •   Highmark also stated that while it understood our position of applying prepayment credits
        as of the first day of the year, that position is not supported by FAR 31.205-6(j)(2)(iii).
        Highmark added that our method for applying the prepayment credits is inconsistent with
        FAR 31.205-6(j)(2)(iii) because it limits a contractor’s ability to decide the timing of its
        pension contributions beyond the limitations imposed by that regulation.

    •   Further, Highmark said that our methodology of applying prepayment credits as of the
        first day of the year contravenes CAS Board policy that prepayment credits should have a
        neutral impact from a cost accounting perspective. According to Highmark, our position
        would “… unfairly penalize contractors who have prepayment credits by reducing their
        allowable pension expense.”

    •   On these bases, Highmark recalculated its total Medicare segment pension costs for FYs
        2008 through 2011 as $13,005,736. Accordingly, Highmark identified a $381,004
        difference (that is, an interest adjustment) between its recalculated amount of
        $13,005,736 and the $12,624,732 amount that we identified in our finding for the
        Medicare segment pension costs.

    •   Regarding the Other segment pension costs, of which only a portion is allocable to the
        Medicare business, Highmark recalculated its Other segment pension costs for FYs 2008
        through 2011 as $215,862,694. Accordingly, Highmark identified a $5,683,734
3
 Highmark’s comments included a table (shown on the second page of Appendix D) depicting the deposit dates of
Highmark’s quarterly contributions.


Highmark Medicare Services, Inc., Allocable Pension Costs (A-07-13-00416)                                       5
           difference between its recalculated amount of $215,862,694 and the $210,178,960
           amount that we identified in our finding for the Other segment pension costs.

      •    As part of its comments, Highmark provided a spreadsheet, prepared by its actuary, that
           demonstrated the impact of the interest adjustment on Highmark’s pension plan in FY
           2011.

                          OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in Highmark’s comments caused us to change our findings or recommendations.

We disagree with Highmark’s assertions about our methodology for the calculation of pension
costs when prepayment credits exist. Although Highmark stated that our interpretation and
application of prepayment credits is not supported by FAR 31.205-6(j)(2)(iii), that regulation
states that “[i]ncreased pension costs are unallowable if the increase is caused by a delay in
funding beyond 30 days after each quarter of the year to which they are assignable.” This
provision applies to all cash contributions made to the pension trust. Because Highmark had
made contributions in excess of the CAS funding target in previous years, the resulting
prepayment credits were available on the first day of the year to cover the assignable pension
costs.

Highmark had already decided to fund these costs with contributions it made into the pension
trust fund, and for that reason, these funds were unavailable to the contractor for any other
purpose but to fund pension costs. Pursuant to FAR 31.201-2 and 31.201-3, it would not be
reasonable for a prudent person in the conduct of competitive business to ignore the existence of
available funds, earmarked for this purpose only, and thereby incur additional interest costs. By
using current-period cash contributions in lieu of the available prepayment credits to liquidate its
pension costs, Highmark would effectively be incurring additional costs by delaying the funding
of the assignable pension costs. Highmark’s approach of applying cash contributions instead of
prepayment credits would identify additional interest costs of $381,004 and $5,683,734 for the
Medicare segment and Other segment, respectively, that would be allocable under that
methodology.

Highmark’s reference to a discussion in the preamble to the publication of the final CAS Pension
Harmonization Rule (CAS 412.50(b)(7)) 4 is not relevant to the application of prepayment credits
in the manner discussed in this report. Rather, the CAS Board discusses how prepayment credits
will be allocated an equal share of investment earnings and administrative expenses based on the
fund’s performance. Although Highmark did not receive interest for quarterly contributions, it
received interest on its prepayment credits (those contributions that exceeded the CAS funding
target) at the valuation rate of interest, as described in Appendix C, endnote 4. CAS 412.50(a)(4)
states: “The accumulated value of such prepayment credits shall be adjusted for interest at the
valuation rate of interest until applied towards pension cost in a future accounting period.” In the
context of our finding that Highmark incorrectly calculated CAS pension costs, and with respect
to our methodology as described in Appendix C, endnote 9, this provision of the CAS, rather


4
    76 Fed. Reg. 81296, 81299 (Dec. 27, 2011).


Highmark Medicare Services, Inc., Allocable Pension Costs (A-07-13-00416)                            6
than the discussion cited by Highmark, constitutes the relevant criteria to determine allocable
pension costs.




Highmark Medicare Services, Inc., Allocable Pension Costs (A-07-13-00416)                         7
                      APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed $13,007,682 of Medicare segment pension costs used by Highmark in the
calculation of its indirect cost rates for CYs 2008 through 2011. We also reviewed $215,594,095
of Other segment pension costs used by Highmark in the calculation of its indirect cost rates for
this same time period.

Achieving our objective did not require that we review Highmark’s overall internal control
structure. We reviewed the internal controls related to the pension costs claimed for Medicare
reimbursement to ensure that the pension costs were allocable in accordance with the CAS and
allowable in accordance with the FAR.

We performed our fieldwork at Highmark in Camp Hill, Pennsylvania, in September 2012.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed the portions of the FAR, CAS, and Medicare contracts applicable to this audit;

    •   reviewed information provided by Highmark to identify the amount of pension costs used
        in Highmark’s calculation of its indirect cost rates for CYs 2008 through 2011;

    •   used information that Highmark’s actuarial consulting firms provided, including
        information on assets, liabilities, normal costs, contributions, benefit payments,
        investment earnings, and administrative expenses;

    •   examined Highmark’s accounting records, pension plan documents, annual actuarial
        valuation reports, and Department of Labor/Internal Revenue Service Forms 5500;

    •   determined the extent to which Highmark funded CAS-based pension costs with
        contributions to the pension trust fund and accumulated prepayment credits;

    •   engaged the CMS Office of the Actuary to calculate the pension costs based on the CAS
        (the calculations were based on separately computed CAS-based pension costs for the
        Medicare segment and the Other segment);

    •   reviewed the CMS actuaries’ methodology and calculations; and

    •   provided the results of our review to Highmark officials on July 12, 2013.

We performed this review in conjunction with the following audits and used the information
obtained during this review:



Highmark Medicare Services, Inc., Allocable Pension Costs (A-07-13-00416)                         8
    •   Highmark Medicare Services, Inc., Understated Its Medicare Segment Pension Assets
        and Understated the Medicare Segment Excess Pension Liabilities as of January 1, 2012
        (A-07-13-00414) and

    •   Highmark Medicare Services, Inc., Claimed Some Unallowable Medicare Pension Costs
        for Fiscal Years 2003 Through 2009 (A-07-13-00415).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.




Highmark Medicare Services, Inc., Allocable Pension Costs (A-07-13-00416)                       9
                APPENDIX B: FEDERAL REQUIREMENTS RELATED TO
                      REIMBURSEMENT OF PENSION COSTS

FEDERAL REGULATIONS

Federal regulations (FAR 52.216-7(a)(1)) address the invoicing requirements and the
allowability of payments as determined by the Contracting Officer in accordance with FAR
subpart 31.2.

Federal regulations (FAR 31.205-6(j)) require Medicare contractors to measure, assign, and
allocate the costs of all defined benefit pension plans in accordance with CAS 412 and 413.
Federal regulations (FAR 31.205-6(j)) also address allowability of pension costs and require that
Medicare contractors fund the pension costs assigned to contract periods by making
contributions to the pension plan.

Federal regulations (CAS 412) (as amended) address the determination and measurement of
pension cost components. This regulation also addresses the assignment of pension costs to
appropriate accounting periods.

Federal regulations (CAS 413) (as amended) address the valuation of pension assets, allocation
of pension costs to segments of an organization, adjustment of pension costs for actuarial gains
and losses, and assignment of gains and losses to cost accounting periods.

MEDICARE CONTRACTS

The contracts state: “Once each month following the effective date of this contract, the
Contractor may submit to the Government an invoice for payment, in accordance with FAR
clause 52.216-7, ‘Allowable Cost & Payment.’”




Highmark Medicare Services, Inc., Allocable Pension Costs (A-07-13-00416)                          10
                                           APPENDIX C: ALLOCABLE PENSION COSTS FOR

                                              HIGHMARK MEDICARE SERVICES, INC.,

                                             FOR CALENDAR YEARS 2008 THROUGH 2011


                                                                       Total           Other         Medicare      Gateway
           Date                     Description                       Company         Segment        Segment       Segment

           2008           Contributions                         1/   $251,581,464    $251,581,464             $0            $0
                          Discount for interest                 2/   ($16,621,149)   ($16,621,149)            $0            $0
     January 1, 2008      Present value contributions           3/   $234,960,315    $234,960,315             $0            $0
                          Prepayment credit applied             4/    $42,561,656     $39,478,592     $1,700,340    $1,382,724
                          Present value of funding              5/   $277,521,971    $274,438,907     $1,700,340    $1,382,724

     January 1, 2008      CAS funding target                   6/     $42,561,656     $39,478,592     $1,700,340    $1,382,724
                          Percentage funded                    7/                         100.00%        100.00%       100.00%
                          Funded pension cost                  8/                     $39,478,592     $1,700,340    $1,382,724
                          Allowable interest                   9/                              $0             $0            $0
           2008           CY allocable pension cost           10/                     $39,478,592     $1,700,340    $1,382,724



                                                                       Total           Other         Medicare      Gateway
           Date                     Description                       Company         Segment        Segment       Segment

           2009           Contributions                               $38,399,318     $38,399,318             $0            $0
                          Discount for interest                       ($1,071,269)    ($1,071,269)            $0            $0
     January 1, 2009      Present value contributions                 $37,328,049     $37,328,049             $0            $0
                          Prepayment credit applied                   $73,504,245     $67,120,585     $4,215,170    $2,168,490
                          Present value of funding                   $110,832,294    $104,448,634     $4,215,170    $2,168,490

     January 1, 2009      CAS funding target                          $73,504,245     $67,120,585     $4,215,170    $2,168,490
                          Percentage funded                                               100.00%        100.00%       100.00%
                          Funded pension cost                                         $67,120,585     $4,215,170    $2,168,490
                          Allowable interest                                                   $0             $0            $0
           2009           CY allocable pension cost                                   $67,120,585     $4,215,170    $2,168,490



                                                                       Total           Other         Medicare      Gateway
           Date                     Description                       Company         Segment        Segment       Segment

           2010           Contributions                               $51,000,000     $51,000,000             $0           $0
                          Discount for interest                         ($851,890)      ($851,890)            $0           $0
     January 1, 2010      Present value contributions                 $50,148,110     $50,148,110             $0           $0
                          Prepayment credit applied                   $55,210,941     $51,291,441     $3,376,929     $542,571
                          Present value of funding                   $105,359,051    $101,439,551     $3,376,929     $542,571

     January 1, 2010      CAS funding target                          $55,210,941     $51,291,441     $3,376,929     $542,571
                          Percentage funded                                               100.00%        100.00%      100.00%
                          Funded pension cost                                         $51,291,441     $3,376,929     $542,571
                          Allowable interest                                                   $0             $0           $0
           2010           CY allocable pension cost                                   $51,291,441     $3,376,929     $542,571




Highmark Medicare Services, Inc., Allocable Pension Costs (A-07-13-00416)                                                    11
                                                                       Total          Other           Medicare               Gateway
           Date                     Description                       Company        Segment          Segment                Segment

           2011           Contributions                              $60,880,000     $60,880,000                 $0                    $0
                          Discount for interest                      ($1,016,512)    ($1,016,512)                $0                    $0
     January 1, 2011      Present value contributions                $59,863,488     $59,863,488                 $0                    $0
                          Prepayment credit applied                  $56,977,758     $52,288,342         $3,332,293            $1,357,123
                          Present value of funding                  $116,841,246    $112,151,830         $3,332,293            $1,357,123

     January 1, 2011      CAS funding target                         $56,977,758     $52,288,342         $3,332,293            $1,357,123
                          Percentage funded                                              100.00%            100.00%               100.00%
                          Funded pension cost                                        $52,288,342         $3,332,293            $1,357,123
                          Allowable interest                                                  $0                 $0                    $0
           2011           CY allocable pension cost                                  $52,288,342         $3,332,293            $1,357,123

ENDNOTES

 1/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form 5500 reports. The
    contributions included deposits made during the CY and accrued contributions deposited after the end of the CY but within the time
    allowed for filing tax returns. We determined the contributions allocated to the Medicare segment during the pension segmentation
    review (A-07-13-00414) and pension costs claimed for Medicare reimbursement review (A-07-13-00415). Therefore, the amounts
    shown for the Other segment represent the difference between the Total Company, the Medicare segments, and the Gateway
    segment.

 2/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to discount the
    contributions back to their beginning-of-the-year value. For purposes of this Appendix, we computed the interest as the difference
    between the present value of contributions (at the CAS valuation interest rate) and actual contribution amounts.

 3/ The present value of contributions is the value of the contributions discounted from the date of deposit back to the first day of the
    CY. For purposes of this Appendix, we deemed deposits made after the end of the CY to have been made on the final day of the
    CY, consistent with the method established by the Employee Retirement Income Security Act prior to the implementation of the
    Pension Protection Act.

 4/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). A prepayment credit is
    created when contributions, plus interest, exceed the end-of-year CAS funding target. A prepayment credit is carried forward, with
    interest, to fund future CAS pension costs.

 5/ The present value of funding represents the present value of contributions plus prepayment credits. This is the amount of funding
    that is available to cover the CAS funding target measured at the first day of the CY.

 6/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of the FAR 31.205-
    6(j)(2)(i).

 7/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the CY. Because any
    funding in excess of the CAS funding target is accounted for as a prepayment in accordance with CAS 412.50(c)(1), the funded
    ratio may not exceed 100 percent. We computed the percentage funded as the present value of funding divided by the CAS funding
    target. For purposes of illustration, the percentage of funding has been rounded to four decimal places.

 8/ We computed the funded CAS-based pension cost as the CAS funding target multiplied by the percent funded.

 9/ We assumed that interest on the funded CAS-based pension cost, less the prepayment credit, accrues in the same proportion as the
    interest on contributions bears to the present value of contributions. However, we limited the interest in accordance with FAR
    31.205-6(j)(2)(iii), which does not permit the allowable interest to exceed the interest that would accrue if the CAS funding target,
    less the prepayment credit, were funded in four equal installments deposited within 30 days after the end of the quarter.

10/ The CY allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes.

Highmark Medicare Services, Inc., Allocable Pension Costs (A-07-13-00416)                                                                   12
                                APPENDIX D: AUDITEE COMMENTS






            December 9, 2013


            Mr. Patrick Cogley
            Regional Inspector General for Audit Services
            Office of Audit Services, Region VII
            Department of Health and Human Services
            601 East 121h Street, Room 0429
            Kansas City, MO 64106

            Subject: OIG Report Number A-01- 13-00416

             Dear Mr. Cogley:

            Thank you for affording Highmark Inc. ("Highmark") this opportunity to comment on
            the U.S. Department of Health and Human Services, Office of Inspector General
            ("OIG"), draft audit report entitled Highmark Medicare Services, Inc., Overstated Its
            Allocable Pension Costs for Calendar Years 2008 Through 2011.

            We have carefully reviewed both the draft audit report and the additional detailed
            supplemental information received from the audit team. Our comments on the findings
            specific to this report are provided below:

            1. Highmark agrees that the demographic recommendations in OIG Report No. A-07-
               13-00414 impact the Medicare segment pension costs.

             2. Highmark does not concur with OIG's interpretation of FAR 31.205-6(j)(2)(iii) as it
                relates to offsetting the prepayment credits from the CAS funding target. Our
                rationale for this disagreement is outlined below.

            The OIG audit report generally disallowed quarterly interest because of the existence of
            Highmark's prepayment credits. The OIG explained its rationale for disallowing
            quarterly interest in a footnote to the report:

                   We assumed that interest on the funded CAS-based pension cost, less the
                   prepayment credit, accrues in the same proportion as the interest on
                   contributions bears to the present value of contributions. However, we
                   limited the interest in accordance with FAR 31.205-6(j)(2)(iii), which does
                   not permit the allowable interest to exceed the interest that would accrue if
                                                     Corpor.l f(• Offio·<>:
                                                   ( ,1 1lll >   Htll I'A I -nHq

                                                    '' \\~\ .l u~hlll.:r~   1 o 111




Highmark Medicare Services, Inc., Allocable Pension Costs (A-07-13-00416)                              13
                   the CAS funding target, less the prepayment credit, were funded in four
                   equal installments deposited within 30 days after the end of the quarter.

            OIG Report No. A-07-13-00416 at 14, n.9.

            Highmark disagrees with the rationale offered by OIG because FAR 31.205-6G)(2)(iii)
            provides no support for OIG's position that quarterly interest cannot accrue if the
            contractor has prepayment credits. FAR 31.205-6G)(2)(iii) does not even reference
            prepayment credits. Instead, FAR 31.205-6G)(2)(iii) simply provides that "[i]ncreased
            pension costs are unallowable if the increase is caused by a delay in funding beyond 30
            days after each quarter of the year to which they are assignable." Accordingly, interest is
            only unallowable if payment is made 30 days after the end of each quarter. As shown
            below, Highmark submitted quarterly cash contributions within 30 days after the end of
            each quarter. The accrued interest on Highmark's quarterly pension payments is
            therefore allowable in accordance with the plain language of FAR 31.205-6G)(2)(iii).

                                    Highmark Qualified Pension Plan Contributions
                                             April15, 2008 ·January 1, 2012


                                        Contribution Date            Amount
                                           3/31/2011          $         60,800,000
                                           3/31/2010          $         51,000,000
                                           7/15/2r:x:IJ       $         19,199,659
                                           4/15/2r:x:IJ       $         19,199,659
                                           U/15/2008          $         12,895,366
                                           12/15/2008         $        200,000,000
                                           10/15/2008         $         12,895,366
                                           4/15/2008          $         12,895,366
                                           4/15/2008          $         12,895,366


            We understand that OIG takes the position that contractors are required to apply
            prepayment credits as of the first day of the fiscal year. As discussed above, that
            position is not supported by FAR 31.205-6G)(2)(iii), which does not reference
            prepayment credits. To the contrary, Highmark submits that OIG's position is
            inconsistent with FAR 31.205-6G)(2)(iii), because it would limit a contractor's ability to
            decide the timing of its pension contributions beyond the limitations imposed by that
            regulation. OIG's position requires every contractor with prepayment credits to make
            100% of its annual pension contribution (up to the amount of the prepayment credit) on
            the first day of the fiscal year. Such a position is contrary to the plain language of FAR
            31.2os-6G)(2)(iii), which expressly allows contractors to make quarterly payments, and

                     Highmark Medicare Services Inc. Response {A·07-13-D0416)




Highmark Medicare Services, Inc., Allocable Pension Costs (A-07-13-00416)                                 14
            which expressly provides that interest on such payments is allowable so long as the
            payment is made within 30 days after the end of each quarter.

            OIG has cited to no other authority that would require contractors to apply prepayment
            credits at the start of the fiscal year or risk having their accrued quarterly interest
            disallowed. Highmark respectfully submits that the OIG's position contravenes stated
            CAS Board policy that prepayment credits should be neutral from a cost accounting
            perspective. See 76 Fed. Reg. 81296, 81299 (Dec. 27, 2011) ("A decision to fund in
            excess of the CAS assigned cost should have a neutral impact on Government contract
            costing, although it might have a transitory negative impact on the contractor's cash
            flow.") . OIG's position would unfairly penalize contractors who have prepayment
            credits by reducing their allowable pension expense. In particular, contractors without
            prepayment credits could recover interest on their quarterly pension contributions,
            while contractors with prepayment credits would not be entitled to such interest. This
            would be true even where the contractor, like Highmark, actually submitted cash
            contributions throughout the year, and thus actually accrued interest on its pension
            obligations. Where the CAS Board previously recognized that the use of prepayment
            credits should have a neutral impact on government contract cost accounting, OIG's
            position is unsupportable not simply as a matter of law, but also as a matter of policy.

            Highmark recalculated its total Medicare segment pension costs for FYs 2008 through
            2011 as $13,005,736. This amount includes the impact of Item No. 1 (i.e., the
            recommendation of OIG Report No. A-07-13-00414), but does not reflect acceptance of
            Item No. 2 (i.e., the interest adjustment). The difference between the recalculated
            amount of $13,005,736 and the OIG Report amount of $12,624,732 of $381,004
            represents the interest adjustments discussed above. Our actuary has developed these
            revised figures based on the information contained in OIG Report Nos. A-07-13-00414
            and A-07-13-00415, and the additional detailed supplemental information received
            from the audit team.

            Regarding the Other segment pension costs, of which only a portion is allocable to the
            Medicare business, Highmark recalculated its total Medicare segment pension costs for
            FYs 2008 through 2011 as $215,862,694. Again, this amount includes the impact of
            Item No. 1, but does not reflect acceptance of Item No. 2. The difference between the
            recalculated amount of $215,862,694 and the OIG Report amount of $210,178,960 of
            $5,683,734 represents the interest adjustments discussed above. Our actuary has
            developed these revised figures based on the information contained in draft reports A-
            07-13-00414 and A-07-13-00415, and the additional detailed supplemental information
            received from the audit team.



                     Highmark Medicare Services Inc. Response (A-07-13-o0416)




Highmark Medicare Services, Inc., Allocable Pension Costs (A-07-13-00416)                              15
             Finally, enclosed with this submission is a spreadsheet prepared by our actuary that
             demonstrates the impact of the interest adjustment on Highmark's pension plan in FY
             2011.

             Thank you again for affording Highmark the opportunity to comment on this report.
             We believe that resolution of the issues raised can best be achieved through an open
             dialogue between the government and Highmark. In that regard, please do not hesitate
             to contact me at (412) 544-6902 or through email at Janine.Colinear@Highmark.com if
             you have any questions regarding this response.




           ?;J~
            Janine K. Colinear
            Chief Accounting Officer
            Highmark Inc.

            Enclosure




                     Highmark Medicare Services Inc. Response (A-o7-13-D0416)




Highmark Medicare Services, Inc., Allocable Pension Costs (A-07-13-00416)                           16
                                                                                                                                     Hichmark Retirement fllan ouantif!cjation of Interest Oisalk>wance and RecondtatMln of Origtna! Resutts t o Recent Audit fcalendar Year Resuftsl

                                                                                                                                                                                                                                                                           RECONCIUAT!ON TO AMOUNTS SHOWN IN DRAFT OIG AUDrT LETTERS
                                                                                                                 Col {I)                     Col {2)                  Col {3)                 Col {4)                     Col{5)                       Col {6)                Col {7)            Col {8)                Col {9)


                                                                                                                                                                                                                                                 CMS fOtr audit) -         Impact of audjt
                                                                                                                                      Highmark Updated                          High mark Orlaln!l lpre          Hilhmark UodJted toost          Time Wejcht ed -        findinis !other than
                                                                                                          High mark Ori;zintl ( pre !post Judi!:) - Auuminc   CMS lper audit) -  auditl submitted for           audit) whkh should have             I!Uinnlni..2i           d isallowance of     Impact of disaltow"ins
                                                                                                       audit) ~ Assuming P.Yment         Pavment as of      Assuming Pavment as reimbursement · Jime                been submittrd for           calendar Year dl.l e        l!n!ru!..2!t             !!!U.rW..2A.          Net lmp!ct as shown in
                                                                                                       as of Beginning of Qllendar Beginning of catendar       of Becinninc of   We)ghted- C!tendar               re imburse me nt · Time         to Prepayment         contributions}: COl lSI· contributions· Col!61 ·   Tab le 2 pace 4 of Rtoort
                                                                                                                                                                calenda r Year           YHr                    Weiehted - C.lendar year               ~                        t2lM)                    ~                   416· Co l f7l +coli&)
                                                                                                                   ~                          .'lU!

                                                                            i. Annual Costs for 2011
                                                                            Indirect                                    $2,237,434                52,288,342              52,288,342              54,770,828                    54.824,204               52,288.342                     53,376                -2,S35,862                   ·2,482,486 •
                                                                            Medicare                                     3,325,554                 3,332,293               3,332,293               3,486,$36                     3,493,900                3,332,293                      7,064                  ~161,ro1 WMMif&A!ltMt§ffif~1
                                                                            Gateway                                      1,360,991                 1,357,123                                                                     1.422,940                                                                       -65,817                      ·69,873
                                                                                                                                                                           ~                       ~                                                       ~                            ~
                                                                            Total                                       56,923,979                56,977,758              56,977,758              59,684,660                    59,741,044               56,977,758                     56,384                -2,763,286                   -2,706,902

                                                                            H. Assumed Contribution Datu
                                                                              a . Payment date #1                                                01/01/2011              01/01/2011                      N/A                              N/A            01/01/2011
                                                                              b. Payment date 112                                                        N/A                     N/ A            04/30/20 11                   04/30/2011                        N/A
                                                                              c. Payment date N3                                                         N/A                     N/A             07/30/2011                    07/30/2011                        N/A
                                                                              d Payment date #4                                                          N/A                     N/A             10/30/ 2011                   10/30/2011                        N/A
                                                                              e . Payment date #S                                                        N/ A                    N/A             12/31/2011                    12/31/2011                        N/A

                                                                            i!i Contributkms actualtv oakt
                                                                              a. Payment date #1                                                                          56,977,758                     N/A
                                                                              b. Pa yment date rt2                                                                               N/A              14,921,165                       14,921, 165
                                                                              c. Paym~nt date #3                                                                                 N/A              14,921,16S                       14,921, 165
                                                                              d. Payment date lt4                                                                                N/A              14,921,165                       14,921,165
                                                                              ~-Payment date #S                                                                                  N/A              ~                                14,921,165
                                                                              f . Total                                                                                   56,977,758              59,684,660                    59,684,660

                                                                            iv. Prepayment Credfts Apptied
                                                                                a. Payment date #l                                                                                                                                     14,096            56,977,758
                                                                                b. Payment date rt2                                                                                                                                    14,096
                                                                                c. Payment dat~ #3                                                                                                                                     14,096
                                                                                d. Payment date #4                                                                                                                                     14,096
                                                                              e. Payment date ItS                                                                                                                                      56,384
                                                                              f. Total




Highmark Medicare Services, Inc., Allocable Pension Costs (A-07-13-00416)
                                                                            • Amount flagg~ with asterisk matche-s the 2011 value shown in Table 2 (page 4) of Report A·07· 13.Q0416. Table 2 (page 4} of report 416 also contains results for 2008 - 2010. Reconcilia tion of 2008 - 2010 not provided
                                                                              hereln since the the-ory applicable to 2008- 201DofTable 2 (page 4 ) of report 4161s identical to what is shown a bove.
                                                                              The disallowance of the interest due to th~ timing of c:ontribuUons also applies to Tab!~ 1 (pag~ 3} of Report 416 and Table 1 (page 3) of Report A-07·13-00415. Howe~r. those results are not developed
                                                                              here because they are on a fiscal, rather than calendar ye ar basis.




17
